                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

     Case Number: A03090050                                                                      Page 1 of 1



              A notification was received from a university' that it had initiated an investigation into
              allegations of research misconduct, and that NSF funds may be involved in the research projects
              affected. Shortly thereafter, a copy of the report of the university investigation committee was
              received, which concluded that an individual2in charge of an analytical service facility3at the
              university had committed scientific misconduct by repeated falsification of scientific data.4

              NSF does not directly support the individual mentioned in the report. Several NSF-supported
              PIS are working on research projects that involve some of the many services provided by the
              facility.' Examination of the annual and final reports and the budgets of the active NSF awards
              show no connection to the laboratory or the individual involved in the university investigation.
              NSF OIG therefore has no jurisdiction in this matter.


              Accordingly, this case is closed.




              ' redacted
               redacted
               redacted
               redacted
               redacted



'
I
    NSF OTG Form 2 (1 1/02)
